INACTIVE OBLIGATIONS
Federal Highway Administration

 Report Number: FI-2004-039
 Date Issued: March 31, 2004
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on                                                          Date:    March 31, 2004
           Inactive Obligations, FHWA
           FI-2004-039

  From:    Alexis M. Stefani                                                       Reply to
                                                                                   Attn. of:   JA-20:x61496
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Highway Administrator

           This report addresses the results of our audit of inactive obligations at the Federal
           Highway Administration (FHWA). An “obligation” represents a liability that is
           created when an agency enters into a binding legal agreement, such as a grant.
           The head of each agency is required to certify annually to the Department of the
           Treasury that obligated amounts are accurate and continue to represent valid
           liabilities. The success of efforts by FHWA to ensure obligated amounts continue
           to represent valid liabilities is a critical measure of the effectiveness of its financial
           management practices. When unneeded obligations for grants are identified, the
           funds should be deobligated and reapplied to other projects.

           In today’s tight budget environment when highway investment needs exceed
           available resources, allowing unneeded obligations to sit idle on highway projects
           leaves fewer funds available for expanding and preserving National Highway
           System infrastructure, increasing mobility, and improving safety, all key FHWA
           performance goals.1 Allowing funds to sit idle also affects state resources,
           because states generally have to contribute a certain percentage of their own funds
           to secure Federal grants for transportation and safety projects. 2
           We previously issued two audit reports that identified hundreds of millions of
           dollars of unneeded funds on FHWA projects. The first report, issued in

           1
               FHWA’s FY 2002 Performance and Accountability Report addresses six strategic goals—safety,
               mobility, productivity (physical infrastructure), human and natural environment, national security, and
               organizational excellence—and describes FHWA’s progress meeting these goals.
           2
               “The Conditions and Performance Report to Congress, on the 2002 Status of the Nation’s Highways,
               Bridges, and Transit,” Part II, indicates that even maintaining overall conditions and performance of
               highways and bridges at current levels through 2020 would require significantly more combined
               investment than currently experienced by all levels of government.
                                                                                                                2


September 1999, identified unneeded obligations as a significant problem in
FHWA, as well as the rest of the Department of Transportation (DOT).
Responding to the report, FHWA deobligated $284 million of funds that were no
longer needed and implemented a policy to perform annual reviews of inactive
obligations. Two years later, in September 2001, we found $238 million in idle
funds that could be deobligated and put to better use on other projects. In
response, FHWA deobligated those funds and issued additional guidance requiring
that FHWA Division Office Financial Managers meet with states prior to and
during annual reviews of inactive obligations and review state records for a sample
of inactive projects to verify whether the obligations were valid. FHWA
Headquarters also required that Division Office Financial Managers reemphasize
the importance of implementing best practice techniques and temporarily posted
the techniques on its web site. FHWA also agreed to incorporate a performance
measure to reduce inactive obligations in its Fiscal Year 2003 Performance Plan.

This report assesses the effectiveness of FHWA’s corrective actions since our
2001 report addressing inactive obligations.3   Our audit objective was to
determine whether FHWA’s inactive obligations represent valid financial
liabilities or can be used on other projects.

FHWA records show about $33 billion was obligated for highway grants as of
December 31, 2002. We identified about 30,000 obligations, totaling $3.3 billion,
with no activity within 18 months. Consistent with our prior two audits, we
defined inactive obligations as those with no activity within 18 months. Our
review did not include high priority or other earmarked projects. About $1.3
billion of the $3.3 billion was obligated on 484 projects with balances of
$1 million or more. About $542 million was obligated on 782 projects with
balances between $500,000 and $1 million. To complete the audit, we visited
10 states, where we reviewed project documentation and discussed project status
with responsible state and FHWA officials. We also asked 35 other states to
review projects with inactive obligation balances of $1 million or more. Exhibit A
further describes our audit scope and methodology. We performed the audit in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the Unites States.

RESULTS IN BRIEF
Despite prior audits and FHWA’s implementation of policies to identify unneeded
obligations, FHWA continues to maintain hundreds of millions of dollars in
unneeded obligations. This audit identified $284 million in unneeded obligations

3
    Following this report, we plan to issue reports that address inactive obligations at the Federal Aviation
    Administration, Federal Transit Administration, and Maritime Administration.
                                                                                         3


on highway and related transportation grants. The obligations were unneeded
primarily because they were associated with canceled, reduced scope, or
completed Federal-aid transportation projects. The $284 million represented
22 percent of the $1.3 billion reviewed. FHWA and state officials agreed with our
findings and are in the process of deobligating unneeded amounts.

Obligations for transportation projects we reviewed were associated with highway
construction and improvement; safety; special projects, such as a parking garage;
and emergency relief projects. We found transportation projects that had been
canceled or completed but their obligated funds were allowed to sit idle for years.
For example:

• One canceled project involved a $28 million obligation to build a large parking
  garage adjacent to a station at the end of a subway line. Funds were obligated
  for the project in September 1992. The obligation balance was adjusted to
  $25.5 million in August 2000, but no funds were expended for the project.
  This project was no longer needed because the subway line was being extended
  by four additional stations. Responding to our visit, the state agreed to
  deobligate the funds and apply them to other projects.

• One completed project involved a $4.9 million obligation for highway
  reconstruction and maintenance, with the last expenditure made in February
  2001. The project was completed in May 2002 for about $2 million. State
  officials agreed to deobligate the remaining $2.9 million, releasing it for use on
  other projects.

    Figure 1: Total Unneeded Inactive   Unneeded obligations associated with these
              Obligations (Millions)
                                        projects can be separated into two categories. As
                               $60
                                        shown in Figure 1, about $224 million of the
                                        $284 million of unneeded obligations was
                                        associated with projects with obligated balances of
                                        $1 million or more. The remaining $60 million
                                        was for projects with obligated balances of
    $224
                                        $500,000 to $1 million.
        $500,000 to $1Million - 21%
        $1Million or More - 79%

The results of our reviews of projects with obligation balances of $1 million or
more highlights the limited effectiveness of state reviews and FHWA oversight.
FHWA’s policy requires states to review these obligations annually to identify
unneeded obligations. FHWA Division Office Financial Managers are also
                                                                                                    4


required to monitor the states’ results. However, at the 10 states4 where we
reviewed project documents and discussed project status with responsible officials,
we identified a much higher proportion of unneeded obligations (29 percent) than
did the 35 states that reviewed the obligations themselves (4 percent), as is shown
in Figure 2.5

    Figure 2. Comparison of Percentage of Unneeded Obligations
      Identified for Transportation Projects ($1 Million and More)

                      States' Review Results                     OIG Review Results
                            4%
                                                          29%




                                                                                      71%
                                            96%
                       Valid     Unneeded                         Valid   Unneeded



Thus additional unneeded obligations probably exist at the states we did not visit.
If the proportion of unneeded obligations we identified at the states visited is
representative of the amounts available at the states we did not visit, we estimate
that an additional $106 million of unneeded inactive obligations could be
deobligated and used on other projects.

FHWA does not currently review inactive projects with obligation balances of less
than $1 million. To determine whether that policy needs to be adjusted, we
judgmentally selected a sample of projects below FHWA’s threshold to determine
whether states were adequately reviewing these inactive obligations. FHWA’s
records include 782 projects, totaling $542 million, with obligated balances of
between $500,000 and $1 million that had been inactive for 18 months or more.
Of the 782 projects, we reviewed 220 projects totaling about $159 million in
obligations. We found that obligations for 88 of the 220 projects, totaling
$60 million or about 38 percent of the amount reviewed, were unneeded. Based
on these results, FHWA could identify and redeploy significant additional
unneeded obligations by amending its policy to begin reviewing inactive
obligations at $500,000. If the proportion of unneeded obligations in our sample
is representative of the proportion that exists in other states, we estimate that

4
    For purposes of this review and in accordance with FHWA practices, we are counting the District of
    Columbia and Commonwealth of Puerto Rico as states.
5
    Seven states had no inactive obligations of $1 million or more.
                                                                                5


FHWA could identify an additional $145 million in unneeded obligations. FHWA
can amend its policy to again lower the dollar value threshold as improvements are
made in reducing unneeded obligations of $500,000 or more.

Reasons Unneeded Obligations Are Not Identified
Specific reasons that FHWA Division Offices and the states did not identify
unneeded obligations include:

• States performed inadequate reviews of inactive obligations before reporting to
  FHWA Division Offices that the obligations were still needed. We found that
  states’ reviews were inadequate at 7 of the 10 states we visited.

• States were not adequately monitoring projects managed by local governments.
  Because the five large states we visited did not receive information about the
  status of projects managed by local governments, the states were not in a
  position to know whether inactive obligations were still needed for these
  projects.

• FHWA Division Office Financial Managers accepted the states’ determinations
  that inactive obligations were still needed without reviewing project
  documentation to verify the states’ determinations. For example, one state
  merely copied responses from the prior annual review, which the responsible
  Division Office Financial Manager accepted without any further detailed
  review.

• FHWA Division Offices encouraged, rather than required, states to implement
  adequate processes, including using previously identified best practices to
  review inactive obligations. As a result, none of the 10 states we visited
  formally adopted the best practices, such as formulating written procedures and
  deobligating remaining amounts on completed projects awaiting close-out.

• FHWA’s policy does not require reviews of projects with inactive obligations
  under $1 million. Division Office Financial Managers reviewed only those
  inactive obligations with unliquidated balances of $1 million or more. As a
  result, significant amounts of obligations are not being reviewed.

• FHWA’s performance measure does not address implementing processes and
  procedures to eliminate unneeded inactive obligations. The performance
  measure is designed to measure the rate of expenditures and does not mention
  reducing inactive obligations. Additionally, FHWA Division Office Financial
  Managers’ performance standards did not include a requirement that they work
                                                                                     6


   with states to implement processes to reduce amounts of unneeded inactive
   obligations.

Conclusion and Recommendations
This is the third time in 6 years that we have identified hundreds of millions of
dollars of idle funds from inactive transportation projects with unliquidated
balances of $1 million or more. Two prior reports identified $284 million and
$238 million of unneeded obligations. This report identifies $224 million with
balances of $1 million or more. Although FHWA committed to strengthen its
oversight of inactive obligations in response to the prior reports, clearly its actions
have not been effective.

To correct this longstanding problem, the FHWA Administrator needs to ensure
that more aggressive steps are taken. We recommend that the FHWA
Administrator:

1. Immediately direct Division Office Financial Managers to review inactive
   obligations at the 35 states we did not visit that had projects with inactive
   obligations over $1 million to identify unneeded obligations. The reviews
   should include reviews of documentation and discussions with responsible
   state officials to determine the status of projects, and results should be reported
   to the Administrator by September 30, 2004.

2. Establish and implement policies and procedures that require Division Office
   Financial Managers annually to (1) work directly with state officials to identify
   unneeded obligations, and (2) ensure that all states implement an effective
   process based on already identified best practices to identify and deobligate
   unneeded funds.

3. Establish and implement policies and procedures that require that the Manager,
   Federal-aid Financial Management Division, periodically review the
   effectiveness of state office and Division Office practices to identify unneeded
   obligations and report the results to the Administrator.

4. Include a performance goal and measure specifically to reduce unneeded
   obligations in FHWA’s Performance Plan. For example, a measure could be
   the number of states that have implemented effective processes to identify
   unneeded obligations.

5. Hold Division Office Administrators and Financial Managers accountable by
   including in their performance standards a requirement that they should work
   with state officials to identify unneeded inactive obligations and ensure that the
   state implements effective processes to identify unneeded obligations.
                                                                                      7



6. Revise the FHWA policy for reviewing inactive obligations by lowering the
   dollar value to $500,000. FHWA should consider including a requirement to
   further lower the dollar value as the unneeded inactive obligations being
   identified decrease.

7. Immediately direct Division Office Financial Managers to review inactive
   obligations at the 43 states we did not visit that had projects with inactive
   obligations between $500,000 and $1 million to identify unneeded obligations.
   The reviews should include reviews of documentation and discussions with
   responsible state officials to determine the status of projects, and results should
   be reported to the Administrator by September 30, 2004.


Management Comments and Office of Inspector General
Analysis
In its March 29, 2004 response to the draft report, FHWA stated that dealing with
inactive obligations has been an emphasis area for the past few years. However,
the continued existence of hundreds of millions of dollars of idle obligations
identified in this report suggests otherwise. In fact, this is the third time in 6 years
that we have identified (1) deficiencies in FHWA’s process to free-up idle funds
and (2) hundreds of millions of dollars of unneeded obligations. Prior agreements
by FHWA to correct the problem have not succeeded because it has not made a
commitment to aggressively tackle the problem. Until it does so, little
improvement can be expected.

FHWA also did not clearly agree or disagree with any of the recommendations.
To illustrate, responding to the first recommendation—that FHWA immediately
direct Division Office Financial Managers to review inactive obligations at the
35 states we did not visit—FHWA commented that the states had already
performed an annual review of the projects and reported the results to the OIG.
The recommendation, however, is directed to FHWA Division Office Financial
Managers, not the states.

This report also clearly demonstrates the need for active FHWA involvement.
Figure 2 on page 4 of the report compares the results of the states’ reviews
(4 percent of inactive obligations identified as unneeded) to the results of more in-
depth OIG reviews (29 percent identified as unneeded). If the proportion of
unneeded obligations at the states we visited is representative of the amounts
available at the states we did not visit, we estimate that an additional $106 million
in idle funds could be freed and used more productively on other projects.
                                                                                 8


As for the other recommendations, FHWA basically said that it would consider
them as it develops a new financial oversight policy. In our opinion, this response
is too general and vague for us to conclude that FHWA’s actions will be
responsive to our recommendations. Therefore, we are requesting that the
Administrator provide more details on the specific actions FHWA will take to
implement the recommendations and the timeframes for implementation. For
example, FHWA should describe methods, such as use of a standard review guide
or checklist of recommended procedures and best practices, that it plans to use to
improve the annual reviews performed by states.
                                                                                 9




FINDINGS AND RECOMMENDATIONS
In 1999 and 2001, we reported that hundreds of millions of dollars in unneeded
obligations existed in FHWA’s accounting records. In response to those reports,
FHWA acknowledged the need to strengthen its funds management efforts and
took corrective actions to address the problem. Those actions included
(1) creating an agencywide report from its Fiscal Management Information System
(FMIS), titled the FMIS Q22A Report, to identify obligations of $1 million and
greater, (2) requiring FHWA Division Office and state officials to perform annual
reviews of projects based on the report, and (3) establishing a performance
measure for inclusion in the FHWA Performance Plan.

Despite these efforts, a significant amount of unneeded obligations still exists,
indicating that more aggressive steps are needed. We reviewed $1.3 billion of
inactive obligations and identified $284 million that no longer represented valid
financial liabilities and that should be freed up to be used for other Federal-aid
highway projects.

Unneeded obligations for highway projects can be separated into two parts. About
$224 million of the $284 million of unneeded obligations were for projects with
unobligated balances of $1 million or more. The remaining $60 million was for
projects with unobligated balances between $500,000 and $1 million. We
reviewed projects with inactive obligations between $500,000 and $1 million to
determine whether FHWA can identify additional unneeded funds by reviewing
projects with smaller balances.

Several deficiencies contributed to the problem of not identifying those inactive
obligations that should be put to better use. First, 7 of 10 states performed
inadequate or only cursory annual reviews of inactive projects, and 5 large states
did not adequately monitor projects managed by local governments. Second,
FHWA Division Office Financial Managers accepted states’ determinations that
inactive obligations were needed without reviewing project documentation and
encouraged but did not require states to implement an effective process, including
use of identified best practices when reviewing inactive obligations. Third,
FHWA only reviewed inactive projects with unliquidated obligations of $1 million
or more. Fourth, FHWA does not have a performance measure that adequately
addresses reducing unneeded obligations.

Federal-aid Transportation Projects
We performed an in-depth review of $1.3 billion of inactive obligations and
determined that an additional $284 million, or 22 percent of the amount reviewed
for transportation projects, were unneeded obligations that could be freed up to be
                                                                                10


used on transportation projects at the states. We found $224 million unneeded for
projects with inactive balances of $1 million or more and $60 million unneeded
for projects with inactive balances between $500,000 and $1 million.

Projects with Inactive Obligations of $1 Million or More
We found $207 million of unneeded obligations on projects with balances of
$1 million or more at states visited. Table 1 summarizes the results of our reviews
for the states we visited.

     Table 1. Inactive Obligations for Transportation Projects
                With Balances of $1 Million or More,
                     As of December 31, 2002
Item         States Visited            Inactive              Unneeded
                                     Obligations            Obligations
                                      Reviewed         Millions     Number of
                                      (Millions)                     Projects
   1       California                   $229           $113            18
   2       District of Columbia           25             25             1
   3       Georgia                        64             17             5
   4       Hawaii                         26               4            3
   5       Maryland                       17               5            3
   6       New Jersey                     14               4            3
   7       New York                       84               6            3
   8       Pennsylvania                   82               7            3
   9       Texas                          78               4            1
   10      Virginia                       87             22            13
              Total                     $706           $207            53

The following examples show the types of projects we identified with obligations
that should have been deobligated and made available for use on other projects.

• In one state, about $28 million was obligated in September 1992 to construct a
  large parking garage adjacent to a subway station. The obligation balance was
  reduced to $25.5 million in August 2000. The project was cancelled when a
  decision was made to add four stations to the subway line, three of which were
  to have significant parking facilities. As a result of our recommendation, the
  state is in the process of deobligating the $25.5 million for use on other
  projects.
                                                                                 11


• In one state, about $17.6 million of emergency relief funds was obligated to
  open roads that were damaged by flooding and mudslides. The last
  expenditure for the project was in December 1999. As a result of our
  recommendation, state and FHWA officials agreed that the unexpended
  balance of about $7.8 million would be deobligated and used on other
  emergency relief projects.

• Planned right-of-way acquisitions totaling about $34.2 million for five
  construction projects in one state were funded separately from the related
  construction projects. Although the right-of-way acquisitions were completed
  by December 2000, remaining unused amounts of about $8.6 million were
  never deobligated. State officials agreed to deobligate the remaining amount
  and use the funds on other projects.

• A $1.8 million project to perform preliminary engineering for the
  reconstruction of a highway was withdrawn because the state did not program
  adequate funds to complete the project. Funds were obligated for the project in
  December 1997, but nothing was expended. The state agreed to deobligate the
  $1.8 million, as well as about $6 million for four other projects for similar
  reasons. Deobligated amounts will be used on other highway projects.

• In one state, about $4.9 million was obligated for a highway reconstruction and
  maintenance project. The project was completed in May 2002 for about
  $2 million. As a result of our recommendation, state officials agreed to
  deobligate the remaining $2.9 million for use on other projects.

• In one state, $3.7 million was obligated in April 1999 for roadway
  reconstruction, but no expenditures were made because approvals were not
  obtained from the public utility. State officials advised us that the project will
  be withdrawn and that funds will be deobligated and used for other projects.

In addition to states visited, 35 states not visited performed their own reviews and
identified an additional $17 million in unneeded obligations on projects with
balances of $1 million or more.

Projects with Inactive Obligations of Under $1 Million
As of December 31, 2002, FHWA had 782 projects, totaling $542 million, with
obligation balances between $500,000 and $1 million. We reviewed 220 of these
projects at 9 of the 10 states visited, with a total of about $159 million in
obligations, to determine whether states were adequately reviewing inactive
obligations below FHWA’s review threshold. We found that obligations for 88 of
                                                                                                    12


the 220 projects, totaling $60 million or about 38 percent of the amount reviewed,
were unneeded, as is shown in Table 2.

             Table 2. Inactive Obligations for Transportation
                Projects Between $500,000 and $1 Million
                         As of December 31, 2002

        #                 States*              Inactive Obligations                Unneeded
                                                 Reviewed From                     Obligations
                                                   $500,000 to                      (Millions)
                                                    $1 Million
                                                    (Millions)
        1        District of Columbia                   $7                              $6
        2        Georgia                                10                               8
        3        Hawaii                                 20                              12
        4        Maryland                               12                               5
        5        New Jersey                              5                               1
        6        New York                               35                               2
        7        Pennsylvania                           29                               9
        8        Texas                                  19                               5
        9        Virginia                               22                              12
                       Total                         $159                              $60

* We reviewed inactive obligations between $500,000 and $1 million at 9 of the 10 states we visited. The
  exception, California, had a significant number of projects with inactive obligations of $1 million or
  more. Due to the time required to review these projects, we did not review inactive obligations from
  $500,000 to $1 million during our field visit.

The following examples show the types of projects with obligations that should
have been deobligated and made available for use on other projects.

    • Construction work on an interchange project was completed and a final
      voucher was submitted in September 1992. However, the remaining funds
      of about $658,000 were never deobligated. According to FHWA’s and
      states’ best practice techniques, the obligated amount in excess of the
      amount billed in the final voucher should have been deobligated. State
      officials agreed to deobligate the entire amount.

    • A local government was responsible for managing a project for bridge
      inspections. Although $506,000 was obligated in July 1999 to complete the
      inspections, nothing was expended. State officials agreed to deobligate the
      entire amount.
                                                                               13


   • In one state, about $1,000,000 was obligated in June 1997 for widening a
     section of an interstate highway. The last expenditure was in June 2001,
     and the total expended for the project was about $142,000. State officials
     agreed to deobligate the remaining $858,000 for use on other projects.

If the proportion of unneeded obligations we identified is representative of the
total amount of inactive obligations for the remaining projects with balances
between $500,000 and $1 million, we estimate that about $145 million in
additional unneeded obligations could be deobligated and used to fund other
projects.

Additional Unneeded Obligations Probably Exist
Relying on the states to identify unneeded obligations without adequate oversight
was not effective. We identified a much higher amount of unneeded obligations at
the 10 states we visited compared to the states we did not visit.

At states visited, we reviewed documents of projects with inactive obligations of
$1 million or more and discussed each project’s status with responsible officials.
We determined that 29 percent of the obligation balances reviewed were unneeded
($207 million unneeded of $706 million reviewed). This was after the states had
completed their annual reviews of inactive obligations.

We requested that 35 other states review their projects and provide us the results
of their reviews. We did not ask the remaining seven states to review their
projects because they had no inactive obligations of $1 million or more. The
35 states that performed the reviews themselves identified only 4 percent of the
obligation balances as unneeded ($17 million unneeded of $419 million reviewed).

Differences in amounts deobligated for transportation projects depending on
whether states or the DOT-OIG conducted the reviews are shown in Figure 3.
                                                                                   14


 Figure 3. Comparison of Percentage of Unneeded Obligations
   Identified for Transportation Projects ($1 Million and More)

                 States' Review Results               OIG Review Results
                       4%
                                                29%




                                                                           71%
                                       96%
                  Valid     Unneeded                   Valid   Unneeded



The analysis shows that there may be significantly more funds that should be
deobligated at states that conducted their own reviews. If the proportion of
unneeded obligations we identified at states we visited applied to states not visited,
we estimate that an additional $106 million of unneeded inactive obligations could
be deobligated and used on other projects.

Reasons Unneeded Inactive Obligations Were Not Identified
Several reasons contributed to the problem of not identifying those inactive
obligations that could be put to better use. First, 7 of 10 states performed
inadequate annual reviews of inactive projects, and 5 large states did not
adequately monitor projects managed by local governments. Second, FHWA
Division Office Financial Managers accepted states’ determinations that inactive
obligations were needed without reviewing project documentation and encouraged
but did not require states to use identified best practices when reviewing inactive
obligations. Third, FHWA only reviewed inactive projects with unliquidated
obligations of $1 million or more. Fourth, FHWA does not have a performance
measure that adequately addresses reducing unneeded obligations.

Adequacy of States’ Reviews of Inactive Obligations
The states are required to perform funds management activities, including
reviewing projects with inactive obligations and promptly releasing unneeded
obligation amounts. However, at 7 of 10 states visited we found that the states’
reviews were not adequately performed. Hundreds of millions of dollars of
unneeded inactive obligations were not being identified and deobligated. Reviews
were not thorough enough, and the states were not implementing the best practices
for reviewing inactive obligations. Additionally, states lacked documenting
evidence to demonstrate that detailed reviews were being performed. Based on
the results of our more thorough procedures, officials at the 10 states we visited
                                                                                                  15


deobligated about $207 million, 29 percent of the total reviewed, for projects with
inactive obligation balances of $1 million or more.

We found examples where officials merely copied the prior year’s response when
responding to the annual review. Also, officials responsible for reviews at some
states did not have documentation to support their determinations and ultimately
reversed their decisions after we requested and began reviewing the
documentation.

As part of the annual project funds management review, FHWA required the states
to use the FMIS Q22A report and provide them results of their review of projects
with no billing activity for the past year and an unexpended balance of $1 million
or more as of December 31, 2002. The reviews performed by the 52 states6
covered 604 projects totaling $1.7 billion in unexpended balances. The 52 states
identified approximately $146 million or 9 percent of unneeded obligations that
could be released and reapplied to other projects. About $62 million of the
unneeded obligations identified by states were deobligated before we started our
review.

Our review procedures included reviewing supporting documentation and
questioning state managers regarding the necessity of the obligation balances for
the projects reviewed. We also questioned officials responsible for projects to
determine whether obligations were still needed for projects that were never
started or which had not had any expenditure for years. As a result, state officials
and project managers agreed that unneeded obligations existed and began
deobligating unneeded balances.

Projects Managed by Local Governments
Five states with large urban areas did not perform adequate oversight of projects
managed by local governments. Projects, such as implementing the use of traffic
signals or installing walkways, were managed by local government officials, who
were ultimately responsible for determining the necessity of inactive obligations
for these projects. States are required to oversee the local projects to ensure that
funds are managed efficiently, but officials at five states visited had difficulty
tracking and determining the status of the local projects.

For example, during our           August 2003 visit, the New Jersey FHWA Division
Office Financial Manager          and state officials were unable to provide us with the
status of and supporting          documentation for 13 projects totaling $18 million
managed by the local               governments.      Twelve of the thirteen projects,

6
    For purposes of this review and in accordance with FHWA practices, we are counting the District of
    Columbia and Commonwealth of Puerto Rico as states.
                                                                                16


totaling $15.3 million, were obligated between 1997 and 2001, but nothing was
expended. The New Jersey Division Office eventually provided us a response
indicating that the funds were still needed for all of the projects.

In addition to New Jersey, FHWA Division Office and state financial managers in
California, New York, Pennsylvania, and Maryland also had difficulty tracking the
status of projects managed by local officials. States and FHWA Division Office
Financial Managers should periodically visit local governments or otherwise
obtain supporting documentation from local officials for use in their annual
reviews.

Adequacy of FHWA Division Offices’ Reviews of Inactive Obligations
The processes used by FHWA Division Office Financial Managers to review
states’ determinations on the necessity of inactive obligations were not sufficient
in 6 of 10 states visited. When performing their annual reviews, FHWA Division
Office Financial Managers did not work closely with state officials reviewing
inactive obligations and frequently accepted states’ determinations without
verifying whether inactive obligations were still needed.              Supporting
documentation was not being reviewed and key state officials, such as Federal-aid
managers, project managers, engineers, and budget and accounting officials, were
not sufficiently questioned regarding the status of the projects. For example,
although many of the projects were either completed or canceled, the Division
Office Financial Managers did not challenge the states’ conclusions that funds
were still needed.

At one state we visited, the FHWA Division Office Financial Manager said he
relied totally on the state Federal-aid manager and accepted whatever the state
decided to do. To adequately review projects, Division Office Financial Managers
should perform a detailed review of supporting documentation and question key
state and local officials.

Establishing Effective Processes and Using Best Practices
FHWA Division Offices and state departments of transportation we visited did not
formally institute FHWA-identified best practices, such as formulating written
procedures for managing inactive projects and deobligating remaining amounts for
completed projects awaiting close-out.       When FHWA Division Financial
Managers did ensure that that states implemented effective processes, we found a
lower percentages of unneeded inactive obligations.

For example, the FHWA Financial Manager at the Texas Division Office ensured
effective processes were used for reviewing obligations. The FHWA Texas
Division Office Financial Manager met regularly with state officials to determine
                                                                                  17


the status of projects.       The Financial Manager also requested written
documentation from the state on the status of projects managed at various state
district offices. These practices helped the FHWA Financial Manager and state
officials better identify competed and canceled projects and track projects
managed at the local level. The FHWA Division Office Financial Manager also
ensured that the state implemented other best practices including reducing
obligated balances on completed projects waiting final vouchers or audits. As a
result, we found a low percentage of unneeded inactive obligations in Texas.

In response to earlier OIG findings on inactive obligations, FHWA and the states
identified best practices in a March 1999 report. The best practices included
techniques such as: (1) formalizing states’ procedures for managing inactive
projects and closing completed projects, (2) entering agreements to close projects
and deobligate funds before final audits are completed, (3) forming joint FHWA
and state teams to meet regularly and review funding needs on inactive projects,
(4) establishing policies that separate financial requirements from engineering and
other nonfinancial requirements that prevent closing completed projects, and
(5) including clauses in contracts to require that final vouchers be submitted within
a specified time after the work is completed.

In its latest Project Funds Management Process Improvement Review, dated
December 2002, FHWA concluded that recommended best practices were not
consistently applied and cited the need to implement best practices for managing
inactive obligations. However, FHWA still has not required Division Offices and
the states to implement best practices.

Until the FHWA Division Offices and state departments of transportation formally
implement and consistently apply the best practices for managing inactive
obligations, significant amounts of inactive obligations will continue to exist.


Using Performance Measures and Performance Management
Techniques
FHWA financial mangers need to be held accountable for ensuring that the level
of unneeded obligation is kept to a lower amount. Our September 2001 report
included a recommendation to “develop and include a performance measure in the
FHWA Performance Plan for reducing inactive obligations.” Although FHWA
incorporated a performance measure addressing funds management in its FY 2003
Performance Plan, the performance measure does not mention reducing unneeded
inactive obligations. Additionally, FHWA Division Office Financial Managers
performance standards do not require that their performance be measured in part
based on ensuring that unneeded inactive obligations are being identified by state
officials.
                                                                                   18


 FHWA incorporated a performance measure in its FY 2003 Performance Plan to
“reduce the annual amount of Federal-aid funds obligated, but not expended, by 10
percent from the previous year.” That measure should encourage states to start
work, incur expenditures, and complete projects sooner. However, it does not
focus on eliminating unneeded inactive obligations. Accordingly, we are
repeating our recommendation that FHWA implement a performance measure to
specifically address reducing unneeded inactive obligations. For example, a
performance measure could be to measure the number of states that have
implemented effective processes to identify unneeded obligations.

To ensure that FHWA’s performance goals are met, FHWA should require that
FHWA Division Office Financial Managers’ performance standards include a
requirement that they work with state officials to identify unneeded obligations
and ensure that the state implements effective processes to reduce unneeded
inactive obligations, including using identified best practices.

RECOMMENDATIONS
We recommend that the FHWA Administrator:

1. Immediately direct Division Office Financial Managers to review inactive
   obligations at the 35 states we did not visit that had projects with inactive
   obligations of $1 million or more to identify unneeded obligations. The
   reviews should include reviews of documentation and discussions with
   responsible state officials to determine the status of projects, and results should
   be reported to the Administrator by September 30, 2004.

2. Establish and implement policies and procedures that require Division Office
   Financial Managers annually to (1) work directly with state officials to identify
   unneeded obligations, and (2) ensure that all states implement an effective
   process based on already identified best practices to identify and deobligate
   unneeded funds.

3. Establish and implement policies and procedures that require that the Manager,
   Federal-aid Financial Management Division, periodically review the
   effectiveness of state office and Division Office practices to identify unneeded
   obligations and report the results to the Administrator.

4. Include a performance goal and measure specifically to reduce unneeded
   obligations in FHWA’s Performance Plan. For example, a measure could be
   the number of states that have implemented effective processes to identify
   unneeded obligations.
                                                                                   19


5. Hold Division Office Administrators and Financial Managers accountable by
   including in their performance standards a requirement that they should work
   with state officials to identify unneeded inactive obligations and ensure that the
   state implements effective processes to identify unneeded obligations.

6. Revise the policy for reviewing inactive obligations by lowering the dollar
   value threshold to $500,000 and by including a requirement to further lower
   the dollar value as the unneeded inactive obligations being identified decrease.

7. Immediately direct Division Office Financial Managers to review inactive
   obligations at the 43 states we did not visit that had projects with inactive
   obligations between $500,000 and $1 million to identify unneeded obligations.
   The reviews should include reviews of documentation and discussions with
   responsible state officials to determine the status of projects, and results should
   be reported to the Administrator by September 30, 2004.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
In its March 29, 2004 response to the draft report, FHWA stated that dealing with
inactive obligations has been an emphasis area for the past few years. (FHWA’s
comments are reproduced in the Appendix.) However, the continued existence of
hundreds of millions of dollars of idle obligations identified in this report suggests
otherwise. In fact, this is the third time in 6 years that we have identified
(1) deficiencies in FHWA’s process to free-up idle funds and (2) hundreds of
millions of dollars of unneeded obligations. Prior agreements by FHWA to
correct the problem have not succeeded because it has not made a commitment to
aggressively tackle the problem. Until it does so, little improvement can be
expected.

FHWA also did not clearly agree or disagree with any of the recommendations.
To illustrate, responding to the first recommendation—that FHWA immediately
direct Division Office Financial Managers to review inactive obligations at the
35 states we did not visit—FHWA commented that the states had already
performed an annual review of the projects and reported the results to the OIG.
The recommendation, however, is directed to FHWA Division Office Financial
Managers, not the states.

This report also clearly demonstrates the need for active FHWA involvement.
Figure 2 on page 4 of the report compares the results of the states’ reviews
(4 percent of inactive obligations identified as unneeded) to the results of more in-
depth OIG reviews (29 percent identified as unneeded). If the proportion of
unneeded obligations at the states we visited is representative of the amounts
                                                                                  20


available at the states we did not visit, we estimate that an additional $106 million
in idle funds could be freed and used more productively on other projects.

As for the other recommendations, FHWA basically said that it would consider
them as it develops a new financial oversight policy. In our opinion, this response
is too general and vague for us to conclude that FHWA’s actions will be
responsive to our recommendations. Therefore, we are requesting that the
Administrator provide more details on the specific actions FHWA will take to
implement the recommendations and the timeframes for implementation. For
example, FHWA should describe methods, such as use of a standard review guide
or checklist of recommended procedures and best practices, that it plans to use to
improve the annual reviews performed by states.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide a response within 30 days to this report that clearly indicates whether
you agree or disagree with each of the recommendations. If you agree with a
recommendation, please provide details on the actions and methods that you plan
to use to implement the recommendation and provide a time table for
implementing the recommendation. If you do not concur, please provide your
rationale. You may provide alternative courses of action that you believe would
resolve the issues presented in this report.

We appreciate the courtesies and cooperation of Federal Highway Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Ted Alves, Assistant Inspector General for
Financial and Information Technology Audits, at (202) 366-1496.


                                         #
                                                                                  21




EXHIBIT A. SCOPE & METHODOLOGY
FHWA had recorded grant obligations of about $33 billion as of December 31,
2002. The bulk of the $30 billion distributed each year is apportioned to the states
to fund investments in highway infrastructure and safety programs. Using
computer queries of the Departmental Accounting and Financial Information
System (DAFIS), we identified 29,896 obligations, totaling $3.3 billion, which
had had no activity for 18 months. Of the $3.3 billion, $1.3 billion represented
484 projects with balances of $1 million or more, and $542 million represented
782 projects with balances between $500,000 and $1 million.

The objective of this audit was to determine if FHWA’s inactive obligations
represented valid financial liabilities or could be used on other projects. We did
not include high priority or earmark projects in our review. To determine whether
inactive obligations recorded in FHWA accounting records represented valid
financial liabilities, we reviewed inactive obligations of $1 million or more. To
assess the impact of revising FHWA’s policy to include reviews of inactive
obligations of less than $1 million, we also reviewed inactive obligations between
$500,000 and $1 million.

We judgmentally selected 10 states for our site visits: California, New York,
Pennsylvania, New Jersey, Hawaii, Virginia, Texas, Georgia, Maryland, and the
District of Columbia. These states were selected based on dollar amounts and the
number of inactive obligations projects. For the 10 states visited, we reviewed
253 projects with inactive obligation balances of about $706 million, which
represented projects with inactive obligations of $1 million or more. At the
35 states not visited with inactive obligations of $1 million or more, we asked state
officials to review 172 projects, totaling about $419 million.              In total,
$1.125 billion of inactive obligations of $1 million or more at 10 states visited and
35 states not visited were included in this review.

In addition, for 9 of the 10 states visited, we judgmentally selected 220 projects,
totaling about $159 million, from projects with obligated balances between
$500,000 and $1 million for inclusion in our audit. California had a significant
number of projects with inactive obligations greater than $1 million and due to the
time required to review these projects, we did not review its inactive obligations of
between $500,000 and $1 million during our field visit.

At the states visited, we requested that FHWA Division Office Financial Managers
provide support to validate the obligated amounts. We also visited state offices,

Exhibit A. Scope & Methodology
                                                                                 22


interviewed project fund managers and program and accounting officials, and
reviewed obligating documents, including project files, to evaluate the monitoring
of selected projects and the use of best practices. At the 35 states not visited, we
sent information to the Financial Managers of the FHWA Division Offices
requesting that states provide the status of projects with inactive obligations
balances of $1 million or more.

We relied on automated information in DAFIS (the Departments’ prior accounting
system) as the primary source for identifying our universes of inactive obligations.
We relied on information from Delphi, DOT’s new financial management system,
to identify the status of obligation balances. We also relied on obligation and
expenditure information in FMIS. Although significant general and security
control weaknesses exist for each of these systems, we were able to substantiate
the accuracy of the data by comparing the information to data maintained at the
states or to supporting obligating records maintained by FHWA.

We conducted the audit in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States. Our audit was
conducted from April 2003 through March 2004. There was no indication of the
existence or occurrence of fraud related to whether the inactive obligations
reviewed represented valid liabilities.




Exhibit A. Scope & Methodology
                                                                                    23




EXHIBIT B. PRIOR AUDIT COVERAGE

OIG AUDIT REPORT NUMBER FE-2001-097, “INACTIVE
OBLIGATIONS, FEDERAL HIGHWAY ADMINISTRATION,”
SEPTEMBER 24, 2001
Our audit identified $2.6 billion of FHWA’s obligations that had been inactive for
18 months as of March 31, 2001. Of the total inactive obligation amount, we
reviewed $670 million and identified $238 million that no longer represented valid
financial liabilities that could either be used for valid transportation projects or be
returned to the United States Treasury General Fund. We recommended FHWA
(1) provide guidance requiring that FHWA Division Office Financial Managers
meet with states before and during annual reviews of inactive obligations and
review available state records for a sample of inactive projects, (2) reemphasize to
FHWA Division Office Financial Managers and the states the importance of
implementing best practices when reviewing projects with inactive obligation
balances, and (3) develop and include a performance measure in the FHWA
Performance Plan for reducing inactive obligations.


OIG AUDIT REPORT NUMBER FE-1999-131, “INACTIVE
OBLIGATIONS, DOT,” SEPTEMBER 27, 1999
DOT and its Operating Administrations had recorded obligations totaling
$51.2 billion as of March 31, 1999. Based on computer inquiries, we identified
about 63,000 obligations, totaling $5.1 billion, with no activity within 18 months.
In a joint effort with the Operating Administrations, we identified $672 million of
recorded obligations that no longer represented valid DOT financial liabilities and
could be used for other needs or returned to the U.S. Treasury.

About $36 billion in recorded obligations belonged to FHWA. Of those, about
$3.2 billion had been inactive for 18 months as of March 31, 1999. We identified
about $284 million of inactive obligations at FHWA that no longer represented
valid financial liabilities. We recommended that DOT establish a policy requiring
that annual reviews of inactive obligations be performed.




Exhibit B. Pri or Audit Coverage
                                                                              24


OIG AUDIT REPORT NUMBER TR-1998-045, “MANAGEMENT
ADVISORY ON UNEXPENDED OBLIGATIONS ON COMPLETE
AND INACTIVE HIGHWAY PROJECTS,” DECEMBER 11, 1997
As of December 31, 1996, FHWA had $4 billion of unexpended obligations with
no activity for 12 or more months that were associated with completed projects.
We conducted a review of unexpended obligations in four states that accounted for
$1.2 billion of the $4 billion of unexpended balances. We found that FHWA and
the states kept excess funds obligated for as long as 12 years on 43 of the
80 projects audited. These excess funds totaled $32 million of $118.8 million
audited at the four states. We recommended, and the FHWA Administrator
agreed, that FHWA develop plans and procedures, including performance goals,
for managing excess funds on complete and inactive highway projects.




Exhibit B. Pri or Audit Coverage
                                                                          25




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Ted Alves                             Assistant Inspector General for
                                        Financial and Information
                                        Technology Audits

  Terrence Letko                        Program Director

  Michael Ralph                         Project Manager

  Leonard Meade                         Project Manager

  Linda Toms                            Senior Auditor

  Clarence Fujimoto                     Senior Auditor

  Sharon Ayers                          Senior Auditor

  LaKarla Lindsay                       Senior Auditor

  Stacie Seaborne                       Analyst

  Jelilat Ojodu                         Auditor

  Edith Ayukegba                        Analyst

  Keyanna Frazier                       Auditor

  Jill Cottonaro                        Analyst

  William Savage                        Computer Specialist

  Shirley Murphy                        Editor

  Kathleen Huycke                       Editor



Exhibit C. Major Contributors to This Report
Appendix. Management Comments                                                               26




                                                            Memorandum

Subject:    INFORMATION: FHWA Comments on Draft Report
             on Inactive Obligations Project No. 04F3001F000              Date: March 29, 2004

From:       Mary E. Peters
            Administrator                                          Reply Refer To:   HABF-20

To:         Theodore Alves
            Assistant Inspector General for Financial and
             Information Technology Audits (JA-20)

      Thank you for the opportunity to provide comments on your draft audit report
      regarding Inactive Obligations. This has been an emphasis area within the Federal
      Highway Administration (FHWA) during the past few years. Following are our
      comments on the specific audit recommendations:

      1. Immediately direct Division Office Financial Managers to review inactive
         obligations at the 35 States we did not visit that had projects with inactive
         obligations of $1 million or more to identify unneeded obligations.

           The 35 States that were not visited by the OIG did perform an annual review of
           projects with inactive obligations of $1 million. This information was provided to
           the Office of Budget and Finance and your office was also provided a spreadsheet
           that included this information listed by State and amount of funds identified for
           de-obligation.

      2. Establish and implement policies and procedures that require Division Office
         Financial Managers annually to: (1) work directly with State officials to
         identify unneeded obligations, and (2) ensure that all States implement an
         effective process based on already identified best practices to identify and de-
         obligate unneeded funds.

           In response to the findings of the FY 2003 Financial Statement audit, we have
           established a team of Division, Resource Center, and Headquarters personnel to
           develop a financial oversight policy and review program, which includes specific
           review requirements. The issue of inactive projects will be included in the policy
           and review program. We expect that the team will develop a new financial
           oversight policy by the end of the fiscal year.



Appendix. Management Comment s
                                                                                      27



   3. Establish and implement policies and procedures that require that the
      Manager, Federal-aid Financial Management Division, periodically review
      the effectiveness of State Office and Division Office practices to identify
      unneeded obligations and report the results to the Administrator.

      This aspect will be addressed as part of the new financial oversight policy.

   4. Include a performance goal and measure specifically to reduce unneeded
      obligations in FHWA’s Performance Plan. For example, a measure could be
      the number of States that implemented effective processes to identify
      unneeded obligations.
      This aspect will be considered as part of the new financial oversight policy.

   5. Hold Division Office Administrators and Financial Managers accountable by
      including in their performance standards a requirement that they should
      work with State officials to identify unneeded inactive obligations and ensure
      that the State implements effective processes to identify unneeded
      obligations.

      This aspect will be considered as part of the new financial oversight policy.

   6. Revise the policy for reviewing inactive obligations by lowering the dollar
      value threshold to $500,000 and by including a requirement to further lower
      the dollar value as the unneeded inactive obligations being identified
      decreases.

      This aspect will be considered as part of the new financial oversight policy.

   7. Immediately direct Division Office Financial Managers to review inactive
      obligations at the 43 States we did not visit that had projects with inactive
      obligations between $500,000 and $1 million to identify unneeded obligations.

       As mentioned in response to item #1 above, all Divisions have completed their
       current review at the $1 million threshold. After establishment of the new
       financial oversight policy and review program, Division offices will conduct
       their annual review based on the thresholds established in the policy.

If you or your staff has any questions, please contact Sandra L. Weisman, Director,
Office of Budget and Finance at (202) 366-0622.




Appendix. Management Comment s
